TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Identification and Evaluation of
                   Systemic Advocacy Projects Designed to
                   Resolve Broad-Based Taxpayer Problems
                              Can Be Improved



                                           June 27, 2011

                              Reference Number: 2011-10-052




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


THE IDENTIFICATION AND                                submit issues through the Internet. However,
EVALUATION OF SYSTEMIC                                TIGTA found that research performed during the
ADVOCACY PROJECTS DESIGNED TO                         screening process to identify issues for
RESOLVE BROAD-BASED TAXPAYER                          Advocacy Projects could be improved to better
                                                      identify systemic problems affecting multiple
PROBLEMS CAN BE IMPROVED
                                                      taxpayers. Specifically, TIGTA sampled 25 of
                                                      the 134 Projects closed in Fiscal Year 2009 and
Highlights                                            determined that documentation for 13 Projects
                                                      did not support that the issue was a systemic
                                                      problem. In addition, TIGTA believes TAS
Final Report issued on June 27, 2011                  management should use existing information
                                                      captured in its Case Advocacy Program, which
Highlights of Reference Number: 2011-10-052           addresses problems faced by individual or
to the Internal Revenue Service National              business taxpayers, to identify issues warranting
Taxpayer Advocate.                                    further review in a Systemic Advocacy Project.
IMPACT ON TAXPAYERS                                   Further, TIGTA believes current performance
                                                      measures do not provide management with
To help meet its mission, the Taxpayer                enough information to assess whether its
Advocate Service (TAS) is required to identify        Projects positively benefited tax administration.
areas in which groups of taxpayers are
experiencing problems with the Internal               WHAT TIGTA RECOMMENDED
Revenue Service (IRS). The TAS conducts               TIGTA recommended that the National
Advocacy Projects to identify solutions for           Taxpayer Advocate require TAS personnel to
systemic issues affecting multiple taxpayers.         perform and document sufficient research to
However, TIGTA determined the TAS does not            support a potential systemic issue exists before
have an effective process to identify systemic        initiating a Project, review Case Advocacy
problems that affect taxpayers. Improving the         Program data to identify systemic issues for
screening process will assist TAS management          Projects, and develop additional performance
in identifying and resolving broad-based              measures that capture the Systemic Advocacy
taxpayer problems, which should prevent or            Projects’ effectiveness in identifying and
reduce similar problems in the future.                resolving systemic issues affecting taxpayers.
WHY TIGTA DID THE AUDIT                               Management stated they have already begun
This audit was initiated to determine whether         implementing significant changes to the issue
the TAS has an adequate process for                   review process and are in the process of
identifying and prioritizing Advocacy Projects        revising their measures for systemic problem
and whether business measures have been               resolution work. Management disagreed with
established for the Systemic Advocacy                 our recommendation to review program data to
Program. Because the TAS has limited                  identify systemic issues for Advocacy Projects,
resources, it needs to have effective processes       stating they already use this information for this
to identify systemic problems. Also, the TAS          purpose. However, TAS personnel informed us
needs to be able to measure the impact its            during our interviews that they do not analyze
Projects have on taxpayers.                           Case Advocacy Program data to consider
                                                      whether Projects should be initiated. Instead,
WHAT TIGTA FOUND                                      they rely on IRS employees and external
                                                      stakeholders to identify and submit potential
The TAS can improve the process used for              systemic issues. TIGTA believes the TAS
identifying Systemic Advocacy Projects. To            should formalize and document a process to
identify potential systemic issues that could be      periodically analyze Case Advocacy Program
reviewed through Systemic Advocacy Projects,          data to identify potential issues that could be
TAS management primarily relies on IRS                addressed in Systemic Advocacy Projects.
employees and its external stakeholders to
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            June 27, 2011


 MEMORANDUM FOR NATIONAL TAXPAYER ADVOCATE

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Identification and Evaluation of Systemic
                             Advocacy Projects Designed to Resolve Broad-Based Taxpayer
                             Problems Can Be Improved (Audit # 201010002)

 This report presents the results of our review of the Taxpayer Advocate Service’s Systemic
 Advocacy Project Program. Our overall objectives were to determine whether the Taxpayer
 Advocate Service has an adequate process for identifying and prioritizing Advocacy Projects and
 whether business measures have been established for the Systemic Advocacy Program. This
 audit was conducted as part of the Treasury Inspector General for Tax Administration’s Fiscal
 Year 2011 Annual Audit Plan and addresses the major management challenge of Providing
 Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                     The Identification and Evaluation of Systemic Advocacy Projects
                          Designed to Resolve Broad-Based Taxpayer Problems
                                             Can Be Improved




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Improvements Are Needed to More Effectively Identify
          Systemic Issues That Affect Multiple Taxpayers ......................................... Page 3
                     Recommendations 1 and 2: ................................................ Page 6

          Additional Performance Measures Would Enable Management
          to More Fully Evaluate the Effectiveness of Systemic Advocacy
          Projects .......................................................................................................... Page 7
                     Recommendation 3:.......................................................... Page 8


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Management’s Response to the Draft Report ...................... Page 13
       The Identification and Evaluation of Systemic Advocacy Projects
            Designed to Resolve Broad-Based Taxpayer Problems
                               Can Be Improved




                       Abbreviations

FY               Fiscal Year
IRS              Internal Revenue Service
NTA              National Taxpayer Advocate
SAMS             Systemic Advocacy Management System
TAS              Taxpayer Advocate Service
                  The Identification and Evaluation of Systemic Advocacy Projects
                       Designed to Resolve Broad-Based Taxpayer Problems
                                          Can Be Improved




                                             Background

Within the Internal Revenue Service (IRS), the Taxpayer Advocate Service (TAS) is an
independent organization whose mission is to help taxpayers resolve problems with the IRS and
to recommend changes to prevent future problems. The TAS established two internal functions
to address its principal statutory missions:
    •   Case Advocacy – addresses problems faced by specific individual and business
        taxpayers. These problems range from simple IRS processing errors or delays to
        complex examinations and appeals. New cases are opened for each taxpayer to address
        his or her specific problem(s).
    •   Systemic Advocacy – identifies areas in which groups of taxpayers are experiencing
        problems with the IRS. The goal is to identify, analyze, and provide resolution of
        broad-based taxpayer problems. New projects are opened based on systemic problems
        that affect multiple taxpayers. For example, a recent project was closed that assessed
        why taxpayer representatives were not receiving taxpayer correspondence. The project
        determined a request to revise IRS system programming to ensure taxpayer
        representatives receive taxpayer correspondence was pending.
The Systemic Advocacy Program initiates Advocacy Projects and Immediate Interventions1
(hereafter referred to as Advocacy Projects) to identify solutions for systemic issues affecting
multiple taxpayers. The projects should result in legislative or administrative recommendations
to help reduce or prevent the problems from occurring in the future. In Fiscal Year (FY) 2009,
we estimated that approximately 19 percent of the TAS Systemic Advocacy Program time was
applied to Advocacy Projects.2 The Systemic Advocacy Program is also responsible for the
National Taxpayer Advocate’s (NTA) Annual Report to Congress, the management of
portfolios,3 and the Internal Management Document/Single Point of Contact Program.4



1
  An Immediate Intervention is an operational issue which causes immediate, significant harm to multiple taxpayers
and demands an urgent response. An Immediate Intervention issue cannot be resolved soon enough through the
normal corrective process.
2
  This was computed by combining Systemic Advocacy and Field Systemic Advocacy time. Field Systemic
Advocacy works Advocacy Projects but is located under the Case Advocacy Program.
3
  Each Local Taxpayer Advocate, in their role as a Portfolio Advisor, is assigned one or more specific topics about
an IRS program area (e.g., Earned Income Tax Credit, offers in compromise, levies) to serve as the subject matter
expert for TAS employees.
4
  The TAS Internal Management Document/Single Point of Contact Program is responsible for the coordination,
development, clearance, and publishing of TAS products, including Internal Revenue Manuals and Interim
Guidance documents.
                                                                                                            Page 1
               The Identification and Evaluation of Systemic Advocacy Projects
                    Designed to Resolve Broad-Based Taxpayer Problems
                                       Can Be Improved



TAS management defines systemic advocacy issues as follows: 
   •   They always affect multiple taxpayers.  
   •   They are not individual taxpayer problems.  
   •   They affect segments of the taxpayer population locally, regionally, or nationally.  
   •   They relate to IRS systems, policies, and procedures.  
   •   They require study, analysis, and administrative changes or legislative remedies.  
   •   They involve protecting taxpayer rights, reducing or preventing taxpayer burden,
       ensuring equitable treatment of taxpayers, or providing essential services to taxpayers.  
The public and IRS employees can submit potential systemic issues on the Internet through the
Systemic Advocacy Management System (SAMS). After TAS personnel review these issues,
those affecting multiple taxpayers (e.g., the Alternative Minimum Tax, Innocent Spouse Claims,
Federal Tax Deposit requirements, refund issues) become Advocacy Projects. To the extent
possible, the TAS is required to propose administrative or legislative changes to resolve or
mitigate those problems.
In FY 2009, the TAS received 860 potential systemic issues through the SAMS. The TAS
opened 116 Advocacy Projects and 19 Immediate Interventions. In FY 2009, the TAS closed
109 Advocacy Projects and 25 Immediate Interventions.
This review was performed at the IRS National Headquarters in Washington, D.C., and at TAS
offices in Boston, Massachusetts, and Dallas, Texas, during the period June 2010 through
March 2011. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                               Page 2
               The Identification and Evaluation of Systemic Advocacy Projects
                    Designed to Resolve Broad-Based Taxpayer Problems
                                       Can Be Improved




                                Results of Review

We determined the TAS can improve the process used for identifying Systemic Advocacy
Projects. To identify potential systemic issues that could be reviewed through Systemic
Advocacy Projects, TAS management primarily relies on IRS employees and its external
stakeholders to submit issues through the Internet. However, we found that research performed
during the screening process to identify issues for Advocacy Projects could be improved to better
identify systemic problems affecting multiple taxpayers. Specifically, we sampled 25 of the
134 Projects closed in FY 2009 and determined that documentation for 13 Projects did not
support that the issue was a systemic problem. A more detailed screening of issues will assist
TAS management in ensuring that a proposed project is an efficient use of limited TAS resources
and helps TAS management meet the overall goals of the Systemic Advocacy Program.
In addition, we believe TAS management should use existing data captured in its Case Advocacy
Program to identify potential issues warranting further review in a Systemic Advocacy Project.
If this type of analysis is done and systemic problems are identified and resolved, it could result
in fewer taxpayers requiring the assistance of the TAS Case Advocacy Program, thereby
reducing taxpayer burden and the TAS Case Advocacy Program resources needed to assist those
taxpayers.
Further, we determined that TAS management has implemented two performance measures
related to its Advocacy Projects. However, we believe the current measures do not provide TAS
management with enough information to assess whether its Projects affected tax administration
in a positive manner. Additional measures that link the results of the Advocacy Projects to the
overall goal of the Systemic Advocacy Program would help management to fully evaluate the
Projects’ success in identifying and resolving broad-based taxpayer problems.

Improvements Are Needed to More Effectively Identify Systemic
Issues That Affect Multiple Taxpayers
In FY 2009, the TAS relied on the SAMS as the primary source for the Advocacy Projects it
accepted into the Systemic Advocacy Program. Although the SAMS web site clearly states that
systemic issues do not apply to just one taxpayer, many of the Advocacy Projects we reviewed
appeared to be confined to a specific problem affecting only one taxpayer. In addition, TAS
management should use existing Case Advocacy Program data to identify potential issues
warranting further review in a Systemic Advocacy Project.




                                                                                            Page 3
               The Identification and Evaluation of Systemic Advocacy Projects
                    Designed to Resolve Broad-Based Taxpayer Problems
                                       Can Be Improved



Advocacy Projects reviewed often did not support that the Project involved a
systemic problem affecting multiple taxpayers
The TAS’ Systemic Advocacy Program developed a process to screen issues received from the
SAMS to select as Projects. However, we determined limited information was gathered during
this screening process to confirm whether the root cause of potential issues was systemic as
opposed to taxpayer-specific. As a result, our review of sampled Projects closed in FY 2009
showed that many appeared to be related to individual taxpayers as opposed to systemic issues.
Each issue received through the SAMS is reviewed by three levels of management to determine
whether it should be elevated to a Project. Three levels of TAS management evaluate issues
received on the SAMS for Project potential using several factors, including:
   •   Scope – Potential volume of taxpayers affected, geographic scope, and issue frequency.
   •   Interest/Visibility/Sensitivity – Congressional interest/support, community/external
       stakeholder interest/support, and media interest/publicity.
   •   Taxpayer Burden – From the taxpayer’s point of view, how long it takes to resolve an
       issue along with the effort and the cost to the taxpayer.
   •   Taxpayer Rights – Denial of taxpayer rights and enhancement of taxpayer rights.
   •   Ability to Affect Change – Likelihood of independent IRS action and TAS ability to
       influence change.
We selected a judgmental sample of 25 of the 134 Projects closed in FY 2009 and determined
that documentation for 13 (52 percent) did not support that the issue was a systemic problem.
We believe the underlying problems in those 13 Projects were generally caused by isolated
mistakes or confusion by the taxpayer, the taxpayer’s representative, or an IRS employee. We
believe these issues would have been more appropriate for the TAS’ Case Advocacy Program.
Although TAS management has established detailed guidance related to screening and approving
potential issues for Systemic Advocacy Projects, we determined some factors were not routinely
considered or documented during the screening process. Our review of the 25 Projects showed
management either did not document or fully research issues to substantiate the initiation of a
Project. TAS management compared the screening of issues to a triage process because of the
potential sensitivity and timing associated with the issues. The level-one reviewer informed us
that he or she attempts to make a decision of whether to recommend an issue for a Project within
3 days. The second-level reviewer stated he or she frequently has to perform additional research
to determine whether a Project is warranted. The third-level reviewer stated, in an effort to be
conservative, he or she often recommends an issue for a Project even if it has not been fully
determined whether a problem exists that affects multiple taxpayers. As a result of this review
process, we believe some Projects were initiated that did not involve systemic issues and,
therefore, were not the best use of limited TAS resources.

                                                                                         Page 4
                  The Identification and Evaluation of Systemic Advocacy Projects
                       Designed to Resolve Broad-Based Taxpayer Problems
                                          Can Be Improved



TAS management generally concurred that the Project case files did not contain sufficient
information to support that the issues involved systemic problems. In addition, they indicated
that the Projects reviewed were opened before a SAMS update was implemented that allowed
research notes and actions to be input into the system and attached to the issue for review by
Systemic Advocacy Program personnel. In addition, a new process was implemented in
July 2009 that created an extra level of review at level two to provide additional perspective of
experienced TAS staff, including Field Systemic Advocacy personnel. TAS management
informed us they plan to implement a series of improvements in mid-2011 to expand the research
performed and more thoroughly review potential submissions before opening a Project.
More detailed research and documentation during the screening process will assist TAS
management with ensuring that a proposed Systemic Advocacy Project is an efficient use of
limited TAS resources and helps TAS management meet the overall goals of the Systemic
Advocacy Program.

TAS management could analyze available Case Advocacy Program data to
identify potential systemic problems that might not be submitted on the SAMS
As previously stated, the TAS relies on its stakeholders to submit issues on the SAMS to help
identify potential systemic issues warranting the initiation of a Project. Our interviews with TAS
management found that the Systemic Advocacy Program does not analyze available Case
Advocacy Program data to consider whether Projects should be initiated. However, the TAS has
in-house information that it could analyze to identify systemic problems warranting a Project that
might not be submitted by Case Advocacy Program personnel on the SAMS. The Standards for
Internal Controls in the Federal Government state that control activities are an integral part of an
entity’s planning, implementing, reviewing, and accountability for stewardship of government
resources and achieving effective results. One key activity in this area is management reviews to
compare actual performance to planned or expected results.
The TAS’ Case Advocacy Program provides assistance to taxpayers who are having specific
problems with the IRS.5 The TAS maintains detailed information about these cases on the
Taxpayer Advocate Management Information System. This system includes codes that represent
the issue affecting the taxpayer for each case worked by TAS Case Advocacy Program
personnel. However, TAS management stated Systemic Advocacy Program personnel do not
analyze available Case Advocacy Program data to identify systemic problems that could be
analyzed in a Project. They rely on the case advocates to identify and submit potential systemic
issues through the SAMS.
Analysis of Case Advocacy Program data for the identification of potential Systemic Advocacy
Projects is especially important because TAS inventory in the Case Advocacy Program has

5
  In order for a taxpayer to have a case worked in the Case Advocacy Program, generally, the taxpayer must have an
issue that is causing either an economic or systemic burden.
                                                                                                          Page 5
              The Identification and Evaluation of Systemic Advocacy Projects
                   Designed to Resolve Broad-Based Taxpayer Problems
                                      Can Be Improved



increased by 37.8 percent between FY 2005 and FY 2009. By analyzing available information
on their system, TAS management may be able to identify issues causing problems for multiple
taxpayers and initiate Systemic Advocacy Projects. This type of analysis could result in
legislative or administrative recommendations that would prevent these problems from affecting
taxpayers in the future. This could reduce taxpayer burden and the TAS Case Advocacy
Program resources needed to assist those taxpayers.

Recommendations
The NTA should:
Recommendation 1: Require that TAS personnel perform and document sufficient research
to support a potential systemic issue exists and affects a large number of taxpayers prior to
initiating a Systemic Advocacy Project.
       Management’s Response: TAS management agreed with our recommendation and
       has begun implementing significant changes to the issue review process.
Recommendation 2: Review Case Advocacy Program data to identify systemic issues that
should be elevated to Systemic Advocacy Projects.
       Management’s Response: TAS management disagreed with our recommendation
       and stated that Systemic Advocacy already uses Case Advocacy Program data in its
       processes. As a result, TAS management did not propose any corrective actions
       associated with our recommendation.
       Office of Audit Comment: Management stated that Systemic Advocacy already uses
       Case Advocacy Program data in its processes. Specifically, management stated in their
       response that they advised the audit team that they review Case Advocacy Program data
       on a regular basis and incorporate that information in its Projects. However, TAS
       personnel informed us during our interviews that they do not analyze Case Advocacy
       Program data to consider whether Projects should be initiated. Instead, they rely on IRS
       employees and external stakeholders to identify and submit potential systemic issues
       through the SAMS. Further, management did not provide us any examples of weekly
       reports that they receive on TAS case receipts for our review during our audit. While the
       examples cited in TAS’ response seem to address the intent of our recommendation, we
       cannot comment on whether these examples fully address our recommendation because
       we were not advised of this during our audit and we did not evaluate these practices. We
       believe the TAS should formalize and document a process to periodically analyze Case
       Advocacy Program data to identify potential issues that could be addressed in Systemic
       Advocacy Projects to ensure that Systemic Advocacy personnel consistently implement
       this analysis.


                                                                                          Page 6
                 The Identification and Evaluation of Systemic Advocacy Projects
                      Designed to Resolve Broad-Based Taxpayer Problems
                                         Can Be Improved



Additional Performance Measures Would Enable Management to More
Fully Evaluate the Effectiveness of Systemic Advocacy Projects
We believe additional measures that link the results of the Systemic Advocacy Projects to the
overall goal of the Systemic Advocacy Program would help management in evaluating the
Projects’ success and ensure TAS resources are focused on the most impactful areas related to
systemic issues. Selecting meaningful performance measures is essential for management to
evaluate the success and impact of its programs. TAS management has implemented two
specific performance measures to assess the effectiveness of its Advocacy Projects:
    1) The number of projects closed per Full-Time Equivalent.6
    2) The timeliness of IRS management’s corrective actions on recommendations made by the
       TAS.
In our opinion, these performance measures provide some benefit, but they do not provide TAS
management with enough information to assess whether its Projects affected tax administration
in a positive manner. Further, they do not provide a link to the overall goals management hopes
to accomplish with its Projects.
For the first performance measure, the TAS reported they closed 12.6 Immediate Interventions
and 7.1 Advocacy Projects per Full-Time Equivalent in FY 2009. While this information may
help gauge the productivity of Systemic Advocacy Program personnel, it does not provide
management with any information about the impact Projects have on resolving systemic
problems affecting taxpayers.
The second performance measure focuses on whether the IRS takes corrective action on
recommendations made by the Systemic Advocacy Program within certain time periods
(1 year on Immediate Interventions, or within 2 years on Advocacy Projects). While this
measure assists management in capturing the timeliness of management’s corrective actions, it
does not fully measure the effectiveness of its Projects. In addition, we determined that only
31 of the 134 Projects closed in FY 2009 contained recommendations in the appropriate field on
the SAMS. As a result, this measure excludes 103 (77 percent) Projects closed without
recommendations.
In 2008, the NTA contracted with an outside consultant to review the Systemic Advocacy
Program’s processes and measures. Although a draft report was submitted to the NTA, we were
unable to obtain a copy of their preliminary results due to the NTA’s preference to wait until the
final report was issued because of her significant disagreement with the consultants’ findings and
recommendations. By the end of our fieldwork, the consultant had not issued a final report


6
 A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year.
                                                                                                            Page 7
               The Identification and Evaluation of Systemic Advocacy Projects
                    Designed to Resolve Broad-Based Taxpayer Problems
                                       Can Be Improved



summarizing the results of their study. As a result, we are unaware if any recommendations will
specifically affect the performance measures of Advocacy Projects.
Additional measures, such as number of projects with recommendations, number of taxpayers
potentially affected, and number of procedural and/or legislative changes resulting from the
Projects, would assist management in fully evaluating the success of its Projects in meeting its
goals of identifying and resolving broad-based taxpayer problems.

Recommendation
Recommendation 3: The NTA should develop and implement additional performance
measures that capture the Systemic Advocacy Projects’ effectiveness in identifying and resolving
systemic issues affecting taxpayers.
       Management’s Response: TAS management agreed with our recommendation and
       stated they are in the process of revising their measures.




                                                                                            Page 8
                    The Identification and Evaluation of Systemic Advocacy Projects
                         Designed to Resolve Broad-Based Taxpayer Problems
                                            Can Be Improved



                                                                                     Appendix I

           Detailed Objectives, Scope, and Methodology

Our overall objectives were to determine whether the TAS has an adequate process for
identifying and prioritizing Advocacy Projects and whether business measures have been
established for the Systemic Advocacy Program. To accomplish our objectives, we:
I.         Determined whether an adequate process has been implemented to identify and prioritize
           Systemic Advocacy Projects.
           A. Reviewed the Internal Revenue Manual and interviewed TAS personnel to determine
              the methodology used to identify and prioritize Systemic Advocacy Projects.
           B. Determined the source of the potential systemic issues by analyzing the SAMS.
           C. Determined whether Systemic Advocacy Program personnel are required to quantify
              the number of taxpayers potentially affected when screening systemic issues by:
               1. Reviewing the Internal Revenue Manual and interviewing Systemic Advocacy
                  Program personnel.
               2. Selecting a judgmental sample of 25 Advocacy Projects closed in FY 2009 from a
                  population of 134 to assess whether Systemic Advocacy Program personnel
                  considered the impact on taxpayers. We chose a judgmental sample based
                  primarily on the location of the analysts assigned to the Projects in an effort to
                  limit our site visits due to resource constraints. We also selected our sample to
                  include a cross-section of issue types, submitters, cycle time,1 and
                  recommendations.
II.        Determined whether TAS management adequately measures the impact of Systemic
           Advocacy Projects on taxpayers.
           A. Interviewed TAS Systemic Advocacy Program management and determined how the
              impact of Systemic Advocacy Projects is currently measured.
           B. Requested the report related to the Systemic Advocacy Program provided to TAS
              management by the independent contractor to identify any recommendations related
              to Advocacy Projects.




1
    Cycle time refers to the elapsed calendar days on completed Advocacy Projects.
                                                                                             Page 9
               The Identification and Evaluation of Systemic Advocacy Projects
                    Designed to Resolve Broad-Based Taxpayer Problems
                                       Can Be Improved



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the TAS’ policies, procedures, and
practices for evaluating whether issues received through the SAMS should be elevated to
Systemic Advocacy Projects. We evaluated these controls by interviewing management and
reviewing Advocacy Project files.




                                                                                        Page 10
              The Identification and Evaluation of Systemic Advocacy Projects
                   Designed to Resolve Broad-Based Taxpayer Problems
                                      Can Be Improved



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Janice M. Pryor, Audit Manager
Joseph P. Smith, Lead Auditor
Yasmin B. Ryan, Senior Auditor
Melinda H. Dowdy, Auditor
Donald J. Martineau, Auditor




                                                                                  Page 11
             The Identification and Evaluation of Systemic Advocacy Projects
                  Designed to Resolve Broad-Based Taxpayer Problems
                                     Can Be Improved



                                                               Appendix III

                       Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy National Taxpayer Advocate TA
Executive Director, Case Advocacy TA:EDCA
Executive Director, Systemic Advocacy Systems TA:EDSA
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: National Taxpayer Advocate TA




                                                                      Page 12
   The Identification and Evaluation of Systemic Advocacy Projects
        Designed to Resolve Broad-Based Taxpayer Problems
                           Can Be Improved



                                                     Appendix IV

Management’s Response to the Draft Report




                                                        




                                                            Page 13
    The Identification and Evaluation of Systemic Advocacy Projects
         Designed to Resolve Broad-Based Taxpayer Problems
                            Can Be Improved




                                                             Page 14

                
The Identification and Evaluation of Systemic Advocacy Projects
     Designed to Resolve Broad-Based Taxpayer Problems
                        Can Be Improved




                                                         Page 15
The Identification and Evaluation of Systemic Advocacy Projects
     Designed to Resolve Broad-Based Taxpayer Problems
                        Can Be Improved




                                                         Page 16
The Identification and Evaluation of Systemic Advocacy Projects
     Designed to Resolve Broad-Based Taxpayer Problems
                        Can Be Improved




                                                         Page 17
The Identification and Evaluation of Systemic Advocacy Projects
     Designed to Resolve Broad-Based Taxpayer Problems
                        Can Be Improved




                                                         Page 18
The Identification and Evaluation of Systemic Advocacy Projects
     Designed to Resolve Broad-Based Taxpayer Problems
                        Can Be Improved




                                                         Page 19
The Identification and Evaluation of Systemic Advocacy Projects
     Designed to Resolve Broad-Based Taxpayer Problems
                        Can Be Improved




                                                         Page 20
The Identification and Evaluation of Systemic Advocacy Projects
     Designed to Resolve Broad-Based Taxpayer Problems
                        Can Be Improved




                                                         Page 21
The Identification and Evaluation of Systemic Advocacy Projects
     Designed to Resolve Broad-Based Taxpayer Problems
                        Can Be Improved




                                                         Page 22
The Identification and Evaluation of Systemic Advocacy Projects
     Designed to Resolve Broad-Based Taxpayer Problems
                        Can Be Improved




                                                         Page 23
The Identification and Evaluation of Systemic Advocacy Projects
     Designed to Resolve Broad-Based Taxpayer Problems
                        Can Be Improved




                                                         Page 24
The Identification and Evaluation of Systemic Advocacy Projects
     Designed to Resolve Broad-Based Taxpayer Problems
                        Can Be Improved




                                                         Page 25
The Identification and Evaluation of Systemic Advocacy Projects
     Designed to Resolve Broad-Based Taxpayer Problems
                        Can Be Improved




                                                         Page 26
The Identification and Evaluation of Systemic Advocacy Projects
     Designed to Resolve Broad-Based Taxpayer Problems
                        Can Be Improved




                                                         Page 27
The Identification and Evaluation of Systemic Advocacy Projects
     Designed to Resolve Broad-Based Taxpayer Problems
                        Can Be Improved




                                                         Page 28
The Identification and Evaluation of Systemic Advocacy Projects
     Designed to Resolve Broad-Based Taxpayer Problems
                        Can Be Improved




                                                         Page 29
The Identification and Evaluation of Systemic Advocacy Projects
     Designed to Resolve Broad-Based Taxpayer Problems
                        Can Be Improved




                                                         Page 30
The Identification and Evaluation of Systemic Advocacy Projects
     Designed to Resolve Broad-Based Taxpayer Problems
                        Can Be Improved




                                                         Page 31
